Memorandum No. D2010-RAM-005      May 26, 2010




        American Recovery and Reinvestment Act
         Project—Construct a Child Development
           Center, Marine Corps Base Camp
                 Pendleton, California
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CDC                           Child Development Center
FAR                           Federal Acquisition Regulation
NAVFAC                        Naval Facilities Engineering Command
OMB                           Office of Management and Budget
PWD                           Public Works Department
QMAD                          Quantitative Methods and Analysis Division
USMC                          United States Marine Corps
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON , VIRGINIA 22202-4704
                                                                         MAY 2 6 2010




MEMORANDUM FOR NAVAL INSPECTOR GENERAL,
              MARINE CORPS INSPECTOR GENERAL,
               COMMANDING OFFICER, NAVAL FACILITIES
                 ENGINEERING COMMAND, SOUTHWEST
              COMMANDING OFFICER, MARINE CORPS BASE CAMP
                 PENDLETON PUBLIC WORKS DEPARTMENT

SUBJECT: American Recovery and Reinvestment Act Project-Construct a Child
         Development Center at Marine Corps Base Camp Pendleton, California
         (Memorandum No. D2010-RAM-005)

We are providing this repOli for your information and use. We performed this audit in
response to the requirements of Public Law 111-5, The American Recovery and
Reinvestment Act of2009. We considered management comments on a discussion draft
of the report when preparing the final repOli. No additional comments are required.

We appreciate the courtesies extended to the staff. Please direct questions to
Mr. Timothy Wimette at (703) 604-8876 (DSN 664-8876).




                                          tf1t~~
                                             Assistant Inspector General (Acting)
                                             Readiness, Operations, and Support
 Memorandum No. D2010-RAM-005 (Project No. D2009-D000LH-0315.000)                   May 26, 2010


               Results in Brief: American Recovery and
               Reinvestment Act Project—Construct a Child
               Development Center at Marine Corps Base
               Camp Pendleton, California
What We Did 

Our overall objective was to evaluate DOD’s
implementation of the American Recovery and
Reinvestment Act of 2009, February 17, 2009.
Specifically, we determined whether Navy and
Marine Corps personnel adequately planned,
funded, executed, tracked, and reported
Project P601, to build a Child Development
Center at Marine Corps Base Camp Pendleton, to
ensure the appropriate use of Recovery Act funds.

What We Found
We determined that Project P601 was justified
and met the Recovery Act goals regarding
accountability and transparency. Personnel at the        Current modular Child Development Center
Naval Facilities Engineering Command                     at Marine Corps Base Camp Pendleton, CA
Southwest, the Marine Corps Public Works
Department, and the Resident Officer in Charge
of Construction Office planned, funded, executed,
and had procedures in place to track and report
the project as required by the Recovery Act and
implementation guidance.

Although the contract initially omitted three
required Federal Acquisition Regulation clauses,
contracting personnel subsequently issued
contract modifications to include the clauses.

What We Recommend
This report contains no recommendations.
                                                          Site for new Child Development Center at 

Management Comments                                       Marine Corps Base Camp Pendleton, CA 

Although no comments were required, Naval
Facilities Engineering Command Southwest
commented on the discussion draft. We
incorporated these comments into the final report.




                                                     i
Introduction
Objective
Our overall objective was to evaluate DOD’s implementation of the American Recovery
and Reinvestment Act of 2009 (Recovery Act), February 17, 2009. We reviewed the
implementation of the DOD Recovery Act plans at the Service and installation levels to
determine whether individual projects were managed to achieve the accountability and
transparency goals of the Recovery Act. Specifically, we determined whether personnel
at Naval Facilities Engineering Command (NAVFAC) Southwest, the Public Works
Department at Marine Corps Base, Camp Pendleton (PWD), and the Resident Officer in
Charge of Construction Office adequately planned, funded, executed, tracked, and
reported Project P601, to build a Child Development Center (CDC) at Marine Corps Base
Camp Pendleton, to ensure the appropriate use of Recovery Act funds. See the appendix
for a discussion of the audit scope and methodology related to the audit objective.

Background
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most impacted by the recession;
provide investments to increase economic efficiency by spurring technological advances
in science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also established unprecedented efforts to ensure the
responsible distribution of funds for its purposes and to provide transparency and
accountability of expenditures by informing the public of how, when, and where tax
dollars were being spent. Further, the Recovery Act states that the President and heads of
the Federal departments and agencies were to expend these funds as quickly as possible,
consistent with prudent management.

DOD received approximately $6.8 billion1 in Recovery Act funds to be used for projects
that support the Act’s purposes. In March 2009, DOD released expenditure plans for the
Recovery Act, which list DOD projects that will receive Recovery Act funds. The
Department of the Navy received $1.928 billion in Recovery Act funds for Operations
and Maintenance; Military Construction; and Research, Development, Test and
Evaluation. Table 1 provides specific funds allocated to each appropriation.

    Table 1. Department of the Navy Program-Specific Recovery Act Appropriations
                     Appropriations                      Amount (millions)
    Operations and Maintenance                                 $916
    Military Construction                                        937
    Research, Development, Test and Evaluation                    75
     Total                                                    $1,928


1
  The $6.8 billion does not include $4.6 billion for the U.S. Army Corps of Engineers or $555 million for
the Homeowners Assistance Fund


                                                     1
Of the $1.928 billion appropriated, the Department of the Navy allocated approximately
$10.5 million of Military Construction money to support the construction of a CDC at
Marine Corps Base Camp Pendleton. According to PWD officials, they originally
planned the project for construction in FY13. However, the PWD identified the project
for Recovery Act funding at this time because it met the requirements of the Recovery
Act and was in the current backlog of projects. NAVFAC Southwest awarded Project
P601 as a task order under a competitive indefinite-delivery, indefinite-quantity multiple
award construction contract for $10,538,675.

Marine Corps Base Camp Pendleton, which covers over 125,000 acres and approximately
200 square miles of terrain, provides training facilities for many active-duty and reserve
Marine Corps units; Army and Navy units; and national, state, and local agencies.
Marine Corps Base Camp Pendleton is the home of I Marine Expeditionary Force, 1st
Marine Division, 1st Marine Logistics Group, and many tenant units.




                                             2

Audit Results
We determined that Project P601 met the goals regarding accountability and transparency
as provided in the Recovery Act. The project was justified, and personnel at NAVFAC
Southwest, the PWD, and the Resident Officer in Charge of Construction Office planned,
funded, and executed the project in order to achieve the goals of the Recovery Act. In
addition, we determined that personnel at NAVFAC Southwest, the PWD, and the
Resident Officer in Charge of Construction Office had procedures in place to track and
report the project as required by the Recovery Act. Although the contract initially
omitted three Federal Acquisition Regulation (FAR) clauses required by the Recovery
Act, contracting personnel subsequently issued contract modifications to include the
clauses.

Planning
PWD personnel appropriately planned the project, which we determined to be justified.
According to project planning documents, the new CDC will replace a temporary
modular structure currently being used for that purpose. The planning documents stated
that although the current modular structure provides a temporary facility for child care, it
is economically unsound to upgrade this structure because it is not properly constructed
for long-term use. In addition, the planning documents explained that if the base does not
build the new CDC, significant investments will be required to maintain the inadequate
and substandard structure. As conditions continue to deteriorate, they will adversely
affect the institution’s efficiency and the quality of life for military families and facility
personnel. At this time, Marine Corps Base Camp Pendleton needs to accommodate
1,690 children in addition to the children currently receiving child care services in order
to meet DOD’s goal of accommodating 80 percent of the child care demand. The new
CDC to be built under Project P601 will accommodate 260 children, which will help
significantly to meet the current need. Therefore, based on the current situation, building
the new CDC will fill a justified need.


PWD personnel appropriately planned the project by completing a detailed cost estimate
and economic analysis. PWD personnel based the cost estimate on facility planning
documents that stated the number of children currently needing child care and the amount
of square feet needed to accommodate those children. The contracting personnel at
NAVFAC Southwest also obtained an Independent Government Estimate approved by its
Chief of Cost Engineering. The economic analysis considered possible alternatives to
providing childcare facilities, such as status quo, renovation, lease, and new construction,
and determined new construction the best option for satisfying childcare requirements
because it would last longer and have lower maintenance costs than modernizing the
temporary modular CDC structure.




                                              3

Funding
The Navy distributed Recovery Act funds to the CDC project in a timely manner and the
funding documents properly identified a Recovery Act designation. Funding documents
showed the approval of funds for the project on September 25, 2009, which was the same
date that the contract was awarded. NAVFAC Southwest personnel awarded the contract
for $4.98 million less than prior estimates, and Headquarters, United States Marine Corps
(USMC) has a plan in place for the bid savings, which is in accordance with May 2009
guidance from the Office of the Under Secretary of Defense (Comptroller).

Execution
NAVFAC Southwest personnel adequately performed the initial execution of the project.
In our evaluation of initial project execution, we determined whether the contract was
competitively solicited and awarded with full transparency, and whether it contained the
required FAR clauses for Recovery Act contract actions.

NAVFAC Southwest contracting personnel competitively awarded the contract at a firm
fixed price of approximately $10.5 million on September 25, 2009, which met the
milestone for timeliness from DOD’s Recovery Act expenditure plan. NAVFAC
Southwest contracting personnel issued the request for proposal competitively, and six
contractors responded. A NAVFAC Southwest source selection board evaluated the
offerors on technical approach, schedule, and price. The source selection board selected
Harper Construction Company based on its overall “Excellent” technical rating,
demonstration of multiple strengths and no weaknesses, and a proposed schedule that
would complete construction 71 days ahead of the planned completion date. Harper
Construction Company also had the third lowest price. The NAVFAC Southwest source
selection board determined that Harper Construction Company’s technical and price
proposal provided the best value to the Government. Harper Construction Company also
had a subcontracting plan that included goals for using small businesses. In addition,
Harper Construction Company registered on the Central Contractor Registration Web
page, and the Excluded Parties List System did not show Harper Construction Company
as a debarred contractor.

In addition, contracting personnel properly recorded contract actions to facilitate full
transparency. Office of Management and Budget (OMB) Memorandum M-09-15,
“Updated Implementing Guidance for the American Recovery and Reinvestment Act of
2009,” April 3, 2009, describes requirements for reporting Recovery Act-funded actions
in the Federal Procurement Data System and publicizing actions on Federal Business
Opportunities. Contracting personnel properly reported the contract award in the Federal
Procurement Data System and announced the solicitation and contract award on the
Federal Business Opportunities Web site.

The contract originally omitted three FAR clauses; however, NAVFAC Southwest
personnel modified the contract to include these clauses. NAVFAC Southwest
contracting personnel included most of the FAR clauses required by Recovery Act
implementation guidance, including those for whistleblower protection, reporting, the



                                            4

Davis-Bacon Act, and the Buy American Act. However, we identified one missing
subcontracting clause 52.244-6, “Subcontracts for Commercial Items” and two clauses
required by FAR Part 23, “Environment, Energy, and Water Efficiency, Renewable
Energy Technologies, Occupational Safety, and Drug-free Workplace.” FAR part 23
prescribes policies and procedures for protecting and improving the quality of the
environment. According to OMB Memorandum M-09-15, agencies must comply with
the requirements of FAR part 23 when acquiring supplies and services 2 using Recovery      FPFPFP   PFPFPF




Act funds. The contract was missing the following clauses required by FAR part 23:

              FAR 52.223-2, “Affirmative Procurement of Biobased Products Under Service
               and Construction Contracts;” and
              FAR 52.223-17, “Affirmative Procurement of EPA-designated Items in Service
               and Construction Contracts.”

Without these clauses, Navy officials could not hold contractors accountable for all
Recovery Act requirements, and the project’s completion may not protect and improve
the environment. Since we identified this issue, NAVFAC Southwest contracting
personnel modified the contract to include the three missing clauses.

Tracking and Reporting
Although construction on the new CDC had not commenced at the time of our review,
the Resident Officer in Charge of Construction Office had adequate personnel and
procedures in place to track and report the project. The engineering technician and a
construction manager assigned to the project will monitor project schedules, address
nonconformances, and ensure the contractor meets contract requirements.

In addition, two contract specialists stated that they planned to monitor and ensure the
contractor reports required Recovery Act information. FAR clause 52.204-11,
“American Recovery and Reinvestment Act – Reporting Requirements,” requires
contractors for Recovery Act projects to report project information at
http://www.FederalReporting.gov. Harper Construction Company reported the number
of jobs and total dollar value for the project as required.




2
P   P   According to the definition of an acquisition in FAR Subpart 2.101, construction is a service.



                                                            5

Conclusion
We concluded that construction of the new CDC filled a justified need. Personnel at
NAVFAC Southwest and the PWD at Marine Corps Base Camp Pendleton adequately
planned, funded, and executed the project in accordance with the accountability and
transparency goals of the Recovery Act. In addition, personnel at the Resident Officer in
Charge of Construction Office had procedures in place to track and report Project P601 as
required by the Recovery Act. Although the contract originally omitted three FAR
clauses, NAVFAC Southwest personnel subsequently modified it to include these
clauses. Therefore, this report contains no recommendations.




                                           6

Appendix. Scope and Methodology
We conducted this performance audit from October 2009 through May 2010. We
interviewed personnel from Headquarters USMC, NAVFAC Southwest, the PWD at
Marine Corps Base Camp Pendleton, and the Resident Officer in Charge of Construction
Office. We reviewed documentation including the official contract file, DD Form 1391
and associated support, the project design schedule, and the contractor’s Recovery Act
reports. We also viewed the current modular CDC and the location for the new CDC.
We reviewed Federal, DOD, Navy, and Marine Corps Base Camp Pendleton guidance,
and compared this guidance to our audit results.

We generally complied with government auditing standards. We followed the audit
documentation and fieldwork standards for this audit. However, due to the unique
requirements of the Recovery Act, along with time limitations for executing this audit, we
did not fully comply with some planning and reporting standards. Specifically, we did not
fully comply with planning standards on the assessment and reduction of fraud risk, and
reporting standards on internal control deficiencies. Generally accepted government auditing
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our conclusions based on our audit objectives. We
believe omitting some aspects of these standards did not limit our ability to conclude
accurately on our audit objectives.

Use of Technical Assistance
Before selecting DOD Recovery Act projects for audit, personnel in the Quantitative
Methods and Analysis Division (QMAD) of the DOD Office of Inspector General
analyzed all DOD agency-funded projects, locations, and contracting oversight
organizations to assess the risk of waste, fraud, and abuse associated with each. QMAD
personnel selected most audit projects and locations using a modified Delphi technique,
which allowed them to quantify the risk based on expert auditor judgment and other
quantitatively developed risk indicators. Initially, QMAD personnel selected 83 projects
with the highest risk rankings. Auditors chose some additional projects at the selected
locations.

QMAD personnel did not use classical statistical sampling techniques that would permit
generalizing results to the total population because there were too many potential
variables with unknown parameters at the beginning of this analysis. The predictive
analytic techniques employed provided a basis for logical coverage not only of Recovery
Act dollars being expended, but also of types of projects and types of locations across the
Military Services, Defense agencies, State National Guard units, and public works
projects managed by U.S. Army Corps of Engineers.




                                             7

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DOD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.
